HHS/OIG-Audit--"Review of the Miami, Florida Office of Refugee Resettlement, (A-04-94-00075)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Miami, Florida Office of Refugee Resettlement," (A-04-94-00075)
July 12, 1994
Complete
Text of Report is available in PDF format (588 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the functions previously performed by the Miami Office of Refugee Resettlement (ORR) are now
performed by the State refugee agency. Further, the Miami office maintains obsolete refugee information and disseminates
incorrect information on the refugee status of individuals which is causing erroneous payments to be made. Moreover, the
Miami staff is not responsible for any of ORR's priority functions of monitoring, oversight or technical assistance and
has limited contact with the State refugee agency. In line with our concerns, officials of the Administration for Children
and Families (ACF) have initiated action to close the Miami office. We are recommending that those resources be used to
further improve ACF's monitoring, oversight and technical assistance of its programs.